No. 19-930

 

IN THE

Supreme Court of the United States

CIC SERVICES, LLC,
Petitioner,
Vv.
INTERNAL REVENUE SERVICE; DEPARTMENT OF
TREASURY; UNITED STATES OF AMERICA,
Respondents.

On Writ of Certiorari to the United States Court of
Appeals for the Sixth Circuit

BRIEF OF THE
AMERICAN COLLEGE OF TAX COUNSEL
AS AMICUS CURIAE IN SUPPORT OF
PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,198 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 22, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
